<html>
<title> - LESSONS LEARNED FROM SECURITY AT PAST OLYMPIC GAMES</title>
<body><pre>[Senate Hearing 108-1004]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 108-1004

                     LESSONS LEARNED FROM SECURITY 
                         AT PAST OLYMPIC GAMES

=======================================================================

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON COMPETITION, FOREIGN COMMERCE, AND INFRASTRUCTURE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                               MAY 4, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
                          U.S. GOVERNMENT PUBLISHING OFFICE
20-674 PDF                     WASHINGTON : 2016                          

________________________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>  
     
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                
                                
                               --------                                

   SUBCOMMITTEE ON COMPETITION, FOREIGN COMMERCE, AND INFRASTRUCTURE

                   GORDON H. SMITH, Oregon, Chairman
CONRAD BURNS, Montana                BYRON L. DORGAN, North Dakota, 
SAM BROWNBACK, Kansas                    Ranking
PETER G. FITZGERALD, Illinois        BARBARA BOXER, California
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 4, 2004......................................     1
Statement of Senator Smith.......................................     1
    Prepared statement...........................................     2

                               Witnesses

Camillo, Mark, Director, Homeland Security, Washington Operations 
  Offices, Lockheed Martin Corporation...........................    13
    Prepared statement...........................................    16
Lewis, Carl, U.S. Olympic Athlete in Track and Field.............    28
    Prepared statement...........................................    29
Lopez, Steven, U.S. Olympic Athlete in Taekwondo.................    26
    Prepared statement...........................................    27
Maples, David G., Johnson, Maples, and Associates................    19
    Prepared statement...........................................    22
Romney, Hon. Mitt, Governor, The Commonwealth of Massachusetts...     3
    Prepared statement...........................................     5

 
                     LESSONS LEARNED FROM SECURITY 
                         AT PAST OLYMPIC GAMES

                              ----------                              


                          TUESDAY, MAY 4, 2004

                               U.S. Senate,
Subcommittee on Competition, Foreign Commerce, and 
                                    Infrastructure,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Gordon Smith, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Good afternoon, ladies and gentlemen. I'll 
call to order this subcommittee hearing, Commerce Committee. 
This is the Competition, Foreign Commerce, and Infrastructure 
Subcommittee. And today, our topic is Olympic security.
    I thank the witnesses for being here today. The purpose of 
today's hearing is to learn more about the lessons of past 
Olympic Games with respect to security, so that we can ensure 
that future Olympic Games will be safer still.
    Today's hearing will examine the evolution of Olympic 
security over the past 30 years, the advancement of 
technological and operational security tactics employed by 
domestic and foreign Olympic organizing officials to secure the 
Games as well as the cost and effectiveness of all of their 
measures. We'll also hear from two Olympians to get their 
perspective about how security has evolved over the years and 
how it affects the athletes who participate in the Games.
    The Olympic security changed forever as a result of the 
tragic events of 1972's Summer Olympic Games in Munich, 
Germany. On September 5, 1972, eight Palestinian terrorists 
broken into the apartments of the Olympic Village housing, of 
the Israeli athletes, and took nine hostages. In the end, five 
of the eight terrorists and all nine of the hostages and a 
German police officer were dead. Since the Munich Games, no 
major Olympic security incident occurred until 1996, in the 
Olympic Games of Atlanta, Georgia. Notwithstanding the 
heightened security in the wake of the World Trade Center and 
the Oklahoma City bombings, on July 27, 1996, a pipe bomb 
filled with nails and screws exploded in a crowd at Olympic 
Centennial Park, killing one person, and injuring more than one 
hundred.
    I suppose most ominous is that in a post-9/11 world, 
security for events of this magnitude becomes all the more 
important. But, in fact, security became a primary concern 
after 9/11 for the organizers of the 2002 Salt Lake Winter 
Olympic Games. In preparation for the Salt Lake Games, a 
consortium of 60 Federal and state law enforcement agencies 
crafted a $310 million security plan that included the 
deployment of 12,000 security personnel. As a result, no major 
security incidents occurred in the Salt Lake Games.
    While it's true that there exist global security concerns 
heading into this summer's Olympic Games in Athens, I'm 
confident that the Greek officials are working in conjunction 
with security officials from around the world to ensure that 
the athletes and spectators who attend the Greek games will be 
well protected. It is a great credit to the Greek government 
that they have budgeted $1.2 billion for security. They have 
reached out to our Nation for lessons learned, as well as to 
the North Atlantic Treaty Alliance to provide military support 
for the security of our athletes and our spectators.
    Again, I want to thank the witnesses for being here, and 
I'd like to remind Members that immediately following today's 
hearing, should they come, we will also have a closed 
classified briefing with Federal officials on the security 
preparations and operational issues relating to the 2004 Summer 
Olympic Games in Athens, Greece.

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon
    I thank the witnesses for being here today. The purpose of today's 
hearing is to learn more about the lessons of past Olympic Games with 
respect to security so that we can ensure that future Olympic Games 
will be even safer.
    Today's hearing will examine the evolution of Olympic security over 
the past 30 years, the advancement of technological and operational 
security tactics employed by domestic and foreign Olympic organizing 
officials to secure the Games, as well as the cost and effectiveness of 
such measures.
    We will also hear from two Olympians to get their perspective about 
how security has evolved over the year and how it affects the athletes 
who participate in the Games.
    Olympic security changed forever as a result of the tragic events 
of the 1972 Summer Olympic Games in Munich, Germany. On September 5, 
1972, eight Palestinian terrorists broke into apartments in the Olympic 
village housing Israel athletes and took nine hostages. In the end, 
five of the eight terrorists, all nine of the hostages, and a German 
police officer were dead.
    Since the Munich Games no major Olympic security incident occurred 
until the 1996 Olympic Games in Atlanta, Georgia. Notwithstanding the 
heightened security in the wake of the World Trade Center and Oklahoma 
City bombings, on July 27, 1996, a pipe bomb filled with nails and 
screws exploded in a crowded Olympic Centennial Park killing one person 
and injuring more than 100.
    Following the attacks of September 11, 2001, security became the 
primary concern for the organizers of the 2002 Salt Lake Winter Olympic 
Games following the attacks of September 11, 2001. In preparation for 
Salt Lake Games, a consortium of federal and state law enforcement 
agencies crafted a $310 million security plan that included the 
deployment of 12,000 security personnel. As a result, no major security 
incidents occurred during the Salt Lake Games.
    While it is true that there exist global security concerns heading 
into this summer's Olympic Games in Athens, I am confident that the 
Greek officials are working in conjunction with security officials from 
around the world to ensure that the athletes and spectators who attend 
the Games will be well protected.
    Again, I would like to thank the witnesses for being here, and I 
would remind members that immediately following today's hearing we will 
conduct a closed classified briefing with federal officials on the 
security preparations and operational issues related to the 2004 Summer 
Olympic Games in Athens, Greece.

    Senator Smith. It's a great privilege for this Committee to 
have as our first witness the Honorable Mitt Romney, Governor 
of the Commonwealth of Massachusetts. In one of his earlier 
roles--in fact, his immediate role prior to becoming Governor--
Governor Romney was the president of the Salt Lake City 
Organizing Committee and was ultimately responsible for a 
spectacular success in Salt Lake without a security lapse. And, 
Governor, we thank you for coming, and we invite your testimony 
now.

           STATEMENT OF HON. MITT ROMNEY, GOVERNOR, 
               THE COMMONWEALTH OF MASSACHUSETTS

    Governor Romney. Thank you, Mr. Chairman. It's an honor to 
be here, and an honor to also be in attendance with noted 
Olympians and those that helped organize the entire effort in 
the United States, the United States Olympic Committee. Their 
work and contribution to the world of sport and to our Nation 
and our heritage is something of which I think we're all 
appreciative.
    I appreciate this chance to address you, as well. I have 
prepared some comments that I hope might be part of the record, 
and be read into the record at some point, but----
    Senator Smith. We'll include them fully, and invite any 
part of them you wish to give.
    Governor Romney. Fine. Let me, then, just run through a 
couple of things that I thought might be of interest to this 
Committee.
    First, and let me say this in foremost manner, the 
Olympics, at least in my view, is greater than a sporting 
event. It means more than just sport. It is sport, but, through 
sport and through the Olympians, we see some of the great 
qualities of the human character. We see loyalty, we see 
passion, pride, determination, perseverance. Hosting an Olympic 
Games, seeing the Olympics on the world stage, is something 
which betters our Nation, betters our athletes, betters our 
kids, and improves the world. It's a demonstration of peace, a 
demonstration of some of the greatest qualities of the human 
spirit, and, therefore, every effort to assure that the 
Olympics are safe and that they proceed is an effort, I think, 
very well worth undertaking.
    Second, I'd note that security is a huge portion of putting 
on the Olympics. As a matter of fact, it was our largest single 
budget item. While we did not spend the full amount that was 
appropriated for Olympic security--that was, of course, largely 
a Federal Government and state government effort--the amount of 
money that's spent on security today is greater than the amount 
spent for venues, spent for information technology, or spent 
for employees.
    Another point. The Olympics, of course, is a target of 
international terrorism, and we know that by virtue of the fact 
that it has been twice attacked, as you mentioned, both in 
Munich and in Atlanta. We have learned from our failures, and 
the failures have taught us things that we can do to improve 
the level of security, not only for Olympics, but for other 
national special-security events, and potentially for homeland 
security on the most broad basis.
    In Munich, for instance, we saw perhaps the demonstration 
of what not to do on almost every dimension, everything from 
the lack of coordination between the security agencies, the 
lack of coordination between the organizer and the security 
agencies, the lack of preparation and drills prior to the 
Games. All of the elements really that were seen in the Olympic 
security effort in Munich demonstrate the worst demonstrated 
practice.
    In Atlanta, there was a great deal of improvement. Atlanta 
had a very strong security program. Many agencies worked very 
hard to secure the Games. But a lesson that came out loud and 
clear for us as we prepared for our Games in Salt Lake from 
the--and, in part, in our discussions with organizers in 
Atlanta--was that there needed to be a higher degree of 
coordination among the various Federal, state, and local 
agencies, that there needed to be a more central command 
structure, that plans needed to be integrated between the 
different agencies, and that the gaps between agencies were 
severe enough that there was the potential for those that would 
attack us to find those holes, those spaces between the various 
agencies. That was, in large measure, corrected by the time 
Salt Lake City came around. Thanks to Presidential Decision 
Directive 62 and the establishment of a Utah Olympic Public 
Safety Command, we had a unified structure.
    Another point. At least from my perspective, there are four 
phases of an effective Olympic security program. And generally 
we only think of three. One phase is the prevention phase. 
That's where the intelligence is, the embedding of personnel, 
the wire-taps, the surveillance, and so forth. Another phase is 
protection of assets. That's magnetometers and barriers and the 
like. Another phase is response--SWAT teams, officers willing 
to move in quickly, fire teams, rescue teams, a detection of 
biological agents in the air, and so forth. And then the final 
phase is the consequence management, which FEMA manages quite 
effectively.
    Of those four phases, one is typically underinvested in and 
underappreciated, and it happens to be, at least in my view, 
the most important, and that is prevention. We spent a lot of 
time thinking about barriers, magnetometers, and detection 
equipment. We spent a lot of time thinking about how we can 
quickly move in, and have great communications between the 
first responders in the event of an incident. We, likewise, 
effectively consider consequence management and where vaccines 
might be needed in the case of a biological attack and the 
like. But very little discussion, effort, funding, and focus is 
addressed to prevention. And if I were assessing the safety of 
a national special-security event like an Olympic Games or like 
a national convention, it would be that area, the intelligence 
area and the prevention area, that I would want to devote most 
of my attention.
    Finally, let me just note that from my written testimony, I 
have put together a checklist of how, if I were asked to 
evaluate the effectiveness of a security program for an event 
like an Olympics, what questions I would ask. And I'll just 
read them off here, because I think they're important.
    First, is there an integrated and coordinated security plan 
that's been adopted by every entity, public and private, with a 
clear delineation of roles each will be playing during the 
Games? So is there a single, unified plan?
    Two, is there a clear chain of command for security and 
safety? Do we know who's in charge? Vice President Gore was 
reported to have asked, in Atlanta, ``Who's in charge of the 
security program?'' and the answer was, ``Well, that depends.'' 
That's the wrong answer.
    Number three, is there an aggressive intelligence 
operation, and will the information gathered from it be 
provided to all the parties that need to know it?
    Number four, have exercises been conducted with all the 
participants?
    Number five, has the process for communications in the 
event of an incident been agreed to by all the parties?
    Number six, have security precautions been put in place for 
all large gatherings around the time of the Games, not just the 
Olympic venues themselves?
    Number seven, is there real-time public health monitoring 
and response planning? Has it been tested?
    And, finally, have all security precautions been taken at 
the Olympic venues, in the transportation system, and at the 
Olympic Village, including background checks of everyone who is 
working in the Games?
    Now, my guess is we could easily come up with a list of a 
hundred tests, but those are the categories of areas that I 
would find most interesting and most revealing about the 
preparation of an Olympic site, perhaps also the most revealing 
about the preparation for any type of national special-security 
event.
    With that, Mr. Chairman, I'd be happy to respond to any 
questions that you might have.
    [The prepared statement of Governor Romney follows:]

           Prepared Statement of Hon. Mitt Romney, Governor, 
                   The Commonwealth of Massachusetts
    Chairman Smith, Senator Dorgan, Members of the Committee,

    Thank you for inviting me to talk with you today about the unique 
security and public safety experience we had in Salt Lake as we 
prepared for and hosted the 2002 Winter Olympic Games. It's an practice 
for the management of each Olympics to pass on to succeeding Games 
their ``lessons learned''--both successes and mistakes. Although 
security and safety planning and implementation varies greatly from 
country to country depending on the structure of law enforcement, there 
are operational lessons that we learned in Salt Lake from those who 
came before us and there are pragmatic lessons that we have endeavored 
to pass on to those who come after. I appreciate the opportunity to 
share some of those with you today.
    I am going to limit my comments today to a number of broad 
principles that were critical to our security planning and 
implementation. Mark Camillo, who led the Federal public safety 
planning effort in his role as lead for the U.S. Secret Service and can 
more appropriately address the operational aspects of the Salt Lake 
security and public safety plan.
    First, a quick review of primary lessons we incorporated into our 
planning in Salt Lake from the Games that came before us. There have 
been several extremely thorough reports written on the terrorist attack 
at the Munich Games, each of which helped inform our approach to 
Olympic security. The lack of basic security measures and cooperation 
between the Organizing Committee and law enforcement was stunning by 
today's standards. This allowed the terrorists easy access to their 
targets at the Olympic Village and meant that, once the hostages were 
taken, there was no set crisis-management procedure to fall back on. In 
part due to the lack of planning for a security crisis, the person who 
negotiated with the terrorists, at their request, was the head of the 
organizing committee--my counterpart. For the first critical 
communications with the terrorists, an untrained chief executive 
negotiated for the lives of athletes. Today, it seems incomprehensible 
that this ever happened. Although there were many hard lessons learned 
from the tragedy of Munich, and the repercussions of that attack are 
felt to this day, there are two I want to focus on here.
    First, communication and coordination between law enforcement and 
the organizing committee are essential. Although it is often difficult 
to maintain a true public/private partnership--particularly between law 
enforcement and the private sector--when you are securing the Olympics 
Games, it is critical. The relationship must be seamless and the two 
must work as one team--practicing together, clarifying roles and 
responsibilities, and communicating constantly.
    In Salt Lake, the organizing committee worked hand-in-glove with 
federal, state and local public safety from day one. The teams that 
designed the venues, laid out locations of everything from tickets 
booths to parking lots to seats and trailers met regularly with law 
enforcement and took their input every step of the way. Our goal was to 
design security into our Games, instead of just putting a security 
overlay on the venues when they were done. Putting together a public 
safety plan that could anticipate and prevent attacks at ten different 
venues, the Village, Opening and Closing Ceremonies and our downtown 
Olympic Square was a painstakingly detailed effort. It required 
thinking through potential terrorist scenarios and devising workable 
procedures to prevent them in all types of weather and crowd 
conditions. Finally, these procedures had to be coordinated with all 
the other Games plans. After all, it's easy to secure a venue if you 
simply shut down the roads--but then how do we get the people in, 
particularly when vehicles are the most commonly used terrorist weapon? 
Transportation and public safety have to work hand-in-glove--and many 
times there are no easy solutions. There are always concerns about 
securing the athletes in transit, and concerns about limiting vehicle 
access to any Olympic venue. Every road closure, every decision about 
which route buses would take, where the athletes would be dropped off 
and where the spectators would park and ride was made in close 
consultation with law enforcement. During the Games, a video feed from 
our transportation center of all the major roads and interstates fed 
directly into the Public Safety Command Center--and law enforcement sat 
side-by-side with the transportation operators to ensure that response 
and monitoring were smooth.
    We faced many barriers in achieving this level of integration and 
coordination between law enforcement and the private sector, primarily 
because we have too many unnecessary firewalls that prevent real 
coordination between government and private companies. We were 
fortunate in Salt Lake that all the senior participants from Secret 
Service, FBI, FEMA and DOD were willing to break new ground and take 
the risk of letting the organizing committee into the day-to-day 
planning. That effort paid off and the seamlessness of our coordination 
was one of our greatest successes in Salt Lake.
    The second lesson we took to heart from Munich was to take every 
precaution when securing locations where large numbers of athletes 
would gather--especially the Olympic Village. I won't detail all the 
steps we took in securing the Village. However, our deterrents included 
double-fencing the perimeter, judicious use of cameras, motion 
detectors, screening people and goods through magnetometers twice 
before letting them in, and an inner, even more secure location that 
only the athletes could access. High-threat delegations, such as the 
Israelis, were given the most secure locations within the village and 
were allowed to bring their own security. Drills were run repeatedly on 
how to deal with an attack on the village--any scenario that can be 
dreamed up was planned for and rehearsed. Again, securing the Village 
was a joint project from day one between law enforcement and the 
organizing committee.
    One of the major lessons we learned from the Los Angeles Games was 
the need to do background checks on all employees and volunteers. This 
can be quite difficult unless the process is begun well in advance. 
Those who were in Los Angeles told us that, because many background 
checks weren't completed before the Games began, convicted felons were 
holding critical posts--even security posts--at Games time. I heard 
from the public safety leadership in LA that they had more problems 
during their Games with crimes committed by volunteers and employees 
who turned out to have records than they did from any other source. So, 
we started the screening process early and anyone who didn't pass a 
background check couldn't work or volunteer for our Games. That meant 
that we had to have over 40,000 background checks performed--and for 
those who would have Olympic Village access, the check was quite 
intensive.
    From Nagano, we learned a lesson that became even more valuable to 
us after 9/11. You may remember that the flu hit that region of Japan 
during the Nagano Games, and had a devastating impact on both the 
athletes and those attending the Games. Nagano was a relatively small 
geographic area, with tens of thousands of people from all over the 
world tightly gathered for several weeks--with bad weather on top of 
it. We learned how critical it is to put in place a public health 
operation that can immediately spot an outbreak and move to contain it. 
In a confined geographic area, sickness can spread like wildfire. 
Working with CDC, FEMA, Department of Energy, and DOD, Utah and the 
Salt Lake Organizing Committee (SLOC) prepared a state-of-the-art 
public health monitoring and response plan and created the in-state 
capability to rapidly analyze biological and chemical samples. We 
received constant reports not only from Olympic areas, but non-Olympic 
locations as well. We also had environmental monitors that tested the 
air in key locations. Our biggest concern may have been a possible 
biological or chemical terrorist attack, but it was Nagano that brought 
home to us the importance of quick identification, reaction, 
containment and treatment in the crowded Olympic environment.
    But it was the lessons learned from Atlanta that had the most 
impact on security and public safety preparations for Salt Lake.
    Other witnesses here today will be able to talk in more detail 
about security and public safety planning in Atlanta. The after-action 
reports we received from Atlanta, and the lessons that were passed on 
to us by the public safety community, indicated that many of the 
problems in Atlanta reflected how slow we were as a nation to begin to 
recognize that terrorism was becoming a security issue inside the 
United States. When Atlanta began preparing for the 1996 Games, there 
had not been a successful foreign terrorist attack on U.S. soil. Then, 
in 1993, the first World Trade Center bombing happened, and most of us 
heard of Osama Bin Laden for the first time. Not long thereafter, 
Timothy McVeigh stunned us all by his brutal attack on innocent people 
in Oklahoma City. Meanwhile, in Japan, terrorists used Sarin gas in the 
subways--showing how easy it was to wreak havoc and death in what had 
previously been regarded as a safe urban area. The reports we received 
indicated that with each new incident, the planners would develop ways 
to prevent and respond to these types of attacks. However, the planning 
effort faced an incredible obstacle due to the dozens and dozens of 
federal, state and local law enforcement and public safety entities 
involved in Games security and safety--with no clear command and 
control structure for Games planning. There was relatively clear 
understanding of who was in charge after an incident occurred--but 
there was no structure establishing who was in charge of planning for 
Games safety and preventing a terrorist incident from happening.
    And that was the crux of the problem. In the United States, we have 
a unique public safety structure. It evolved from our desire as a 
country to make sure that power is always retained at the most local 
level of government possible and that we never create the all-powerful 
law enforcement arms that viciously rule in other countries. But, in 
meeting this admirable goal, we sometimes sacrifice coordination--one 
of the key ``lessons learned'' from Munich. In Atlanta, where there 
were over 50 different public safety agencies--federal, state and local 
all ``in charge'' of securing a piece of the Games, the attempt to 
voluntarily pull everyone together to develop a coordinated plan 
apparently didn't work. We were told afterwards that, about a year out 
from the Games, Vice President Gore came to Atlanta for a security 
briefing and asked a straight-forward question--``Who's in charge''. 
The answer back was ``it depends''. Not a good answer. Accurate, but 
when you are holding the largest peacetime event in history and 
terrorism has begun to rear its ugly head in your country, you want 
someone who can tell you that they are responsible for the overall 
effort. In Atlanta, no one was. So the primary lesson from Atlanta was 
that coordination among government agencies was just as critical, if 
not more critical, than coordination between government and the 
organizing committee.
    With one year to go, the Federal Government began to infuse massive 
resources into Atlanta--over 14,000 troops were sent in. Federal law 
enforcement agents came in by the hundreds. They hardened the Olympic 
Villages, increased security on the athlete transportation system, and 
put multiple layers of security on most of the sports venues and 
Opening and Closing Ceremonies. But, the Olympics is more than just 
sport--it is the gathering of world in celebration of peace and the 
human spirit at festivals, concerts, art shows and more. And one of the 
major celebration points, Centennial Olympic Park, became the target of 
a bomber. Another bitter lesson--sports and the athletes are not the 
only targets of terrorists--sometimes it can be the celebration itself 
that becomes the target.
    Both of these lessons would have enormous impact on our planning in 
Salt Lake.
    Following Atlanta, the White House decided to create a structure 
that would clarify who was in charge and make someone accountable for 
ensuring that a coordinated security and safety plan was put in place. 
President Clinton issued Presidential Decision Directive 62 which set 
out a hierarchy for all so-called ``National Special Security Events.'' 
It put the U.S. Secret Service in charge of planning and operational 
security, the FBI in charge of intelligence and the immediate response 
to a terrorist incident, and FEMA in charge of handling the 
consequences of an event with mass casualties. Even more important to 
SLOC, in terms of getting work done on a day-to-day basis, this meant 
there were just three easily-accessible individuals in charge of making 
sure that everything came together in their areas of responsibility.
    On the state level, Utah also put in place a structure that would 
produce a coordinated and integrated public safety plan and--just as 
importantly, put someone in charge. The Utah Olympic Public Safety 
Command (UOPSC) was created by the state legislature in 1998 with the 
authority to plan and direct the Olympic security and public safety 
efforts of various state and local police agencies in a unified way. At 
Games time, all of the personnel would work as part of a unified 
Olympic command--under direction of the Olympic Public Safety Commander 
and not under the command of individual sheriffs and police chiefs.
    Both of these structures, the Federal NSSE designation and the Utah 
Olympic Public Safety Command, were new and I will admit we faced 
difficulties over the years as these new reporting relationships were 
evolved and refined. However, by the beginning of 2001, both structures 
were working extremely well and most if not all of the problems had 
been resolved. These structures ensured that our final public safety 
plan truly was coordinated and integrated at every level--federal, 
state, local and the organizing committee. One of the greatest lessons 
that we pass on to future Games is this model for creating a 
coordinated effort--even in the unique structure of U.S. law 
enforcement and public safety.
    We took the second lesson of Atlanta--that all large gatherings 
could be the target of terrorist attacks--to heart as well. First, we 
decided in consultation with the Secret Service that rather than 
spreading our Olympic celebrations, concerts and medals presentations 
around the city, we would create one multi-block area which would hold 
all the events and create a single site to secure. Admittedly, Salt 
Lake Olympic Square was an enormous site--stretching over eight city 
blocks. But, it is easier to secure a single perimeter and have limited 
points of entry for nagging and bagging the public than it is to 
duplicate this effort in multiple sites. And, it allowed us to truly 
concentrate our resources where they could be most effective.
    We revisited this lesson from Atlanta in the weeks after 9/11. In 
addition to events held by the Organizing Committee, there were many 
events being held by the State, Salt Lake City, and others--some 
expected to draw thousands of attendees. Each event was reviewed by the 
Federal Government and for those where there was some concern that the 
event could be an attractive target, the event was either cancelled or 
a more robust security plan was put in place. We recognized the reality 
that you can never harden every target--to do that you would literally 
have to shut down the state. However, we also decided that there was no 
reason for us to create additional targets by having more events than 
we could secure appropriately.
    Another lesson we learned in Salt Lake that we have passed on to 
future Games is the importance of having a very clear communications 
plan--both before and during the Games. Obviously, the media is going 
to ask questions about the security plan for a Games and, just as 
obviously, the people answering need to be aware that there answers may 
be read or heard by those looking to plan an attack. This was initially 
a problem for us in Salt Lake. We had dozens of local public safety 
officials involved in planning for the Games, and the media soon 
learned that they could go to these individuals and often get dramatic 
or sensational answers to their questions. It was one of my greatest 
frustrations. Particularly when it was televised on national TV which 
venues were the safest and what the vulnerabilities were of other 
venues. The public safety community was unable to reach agreement on 
how much should be made public and who should talk until just months 
before the Games. Honestly, the horrible events of September 11 
probably did more to convince some of our officials that communications 
during a crisis should be handled by the leadership of the public 
safety organization than any of the theoretical conversations we had 
earlier.
    In my opinion, the most important lesson we learned in Salt Lake, 
and the one that I repeat whenever I get the opportunity, is the 
critical nature of intelligence in preventing an attack. Most Games 
focus on two security aspects--preventing an attack by hardening the 
venues and transportation system and ensuring that the resources are in 
place to respond to an attack. In Salt Lake, there was also tremendous 
emphasis put on gathering information from all levels and sources and 
sharing that information between federal, state and local officials. 
While I can't speak in this setting to the different methods employed 
by the federal, state and local governments to gather intelligence, I 
can tell you that it was a highly coordinated and aggressive effort. 
Jurisdictional issues didn't appear to come into play; instead, each 
level of government used its people in every way appropriate to gather 
information--then all levels of government shared in the data once it 
was analyzed.
    Why do I think this was so important? As I said earlier, it is 
impossible to harden every target--even the Olympic venues. Remember 
that many of our venues were literally mountains--mountains which could 
easily receive several feet of snowfall in a night and where the 
temperatures dropped below zero after dark and the winds could reach 
storm force. We couldn't put fencing all over those mountains; cameras 
and other equipment aren't reliable in that cold; and there aren't 
enough people to stand perimeter duty over hundreds of square miles in 
the freezing cold twenty-four hours a day. So, the Secret Service 
designed an effective effort--using the latest technology and 
surveillance methods and some very hardy agents. But, in the end, our 
best offense was to know about a possible attack on a venue like that 
before it happened. Good intelligence, effectively shared and utilized, 
was critical.
    The final lesson learned from Salt Lake that I want to focus on is 
the importance of putting the security and safety team in place as far 
out as possible, and then exercise, exercise, exercise. In Salt Lake, 
we had our final team from the Secret Service, FBI, FEMA, DOD and SLOC 
in place over a year out. This team had to manage as one unit during 
the Games, and they spent over a year meeting and talking daily until 
working together became second nature. That broke down many of the 
usual barriers to a truly integrated operational effort.
    We also held exercise for all levels of personnel involved--from 
the local cop on the street to the senior management at SLOC. And we 
didn't hold one or two exercises--we held dozens. And with each we 
learned. I remember clearly one of the first I participated in where, 
instead of letting the venue manager and the law enforcement lead at 
the venue make the decisions, I ordered the evacuation of the building 
because of smoke--theoretically sending hundreds of people into an area 
where a car had just exploded. Lesson learned--let the operational 
decisions be made by those on the ground. And with each exercise, we 
all learned--and we fixed the problems we found and then went looking 
for more. We tell all future Games to start exercising early and to 
make sure that they conduct their exercises in conjunction with the 
government agencies that they will be working with during the Games. 
It's the only way to make sure that when the real thing starts, you're 
ready.
    Mr. Chairman, all of these lessons have been passed on to Greece, 
Turin, and China. In some cases, the problems we addressed are uniquely 
American--in others, they are applicable to any country hosting an 
Olympics and trying to ensure that the Games are safe from terrorist 
attack. I would urge you as you look into security and safety planning 
for those Games, that you ask the following questions:

  <bullet> Is there an integrated and coordinated security plan that 
        has been adopted by every entity--public and private--with a 
        role to play in securing the Games?

  <bullet> Is there a clear chain of command for security and safety?

  <bullet> Is there an aggressive intelligence operation and will the 
        information be shared with those on the ground that need to 
        know it?

  <bullet> Have exercises been conducted with all participants?

  <bullet> Has the process for communications during an incident been 
        agreed to?

  <bullet> Have security precautions been put in place for all large 
        gatherings around the time of the Games--and not just the 
        Olympic venues?

  <bullet> Is there a real-time public health monitoring and response 
        plan? Has it been tested?

  <bullet> Have all security precautions been taken at the Olympic 
        venues, in the transportation system, and at the Olympic 
        Village, including background checks of everyone working in the 
        Games?

    Clearly, the upcoming Games in Greece will have a different level 
of coordination and communications challenges from those we faced due 
to the assistance that is being provided by other countries to the 
security effort. Therefore, understanding the steps that have been 
taken to ensure that all security and safety related operations are 
well-integrated and closely coordinated is all the more important.
    I'd like to close with a personal comment. During the three years 
that I served as CEO of the Salt Lake Organizing Committee, I was asked 
many times whether or not it made sense to continue holding the 
Olympics, considering the increased security risks and the enormous 
expense of hosting the Games. My answer then, as now, is that it is 
more important than ever that the Games continue and that the United 
States play a major role in the continuation of the Olympic movement.
    For the athletes, the Olympic Games represent the culmination of 
years of effort and sacrifice. But for the rest of us, the Olympics are 
about far more than sport. Sport is merely the stage on which the 
athletes perform--and in them we see the qualities of the human spirit 
that inspire us all. The Games reaffirm that, no matter what country or 
culture, the human spirit can triumph and achieve through hard work, 
dedication, persistence, loyalty and commitment. In this time when the 
children of our Nation and our world need real heroes, real role-
models, the Olympics provides those heroes.
    In Salt Lake, hundreds of millions of dollars were spent by the 
federal, state and local governments and SLOC to secure the Games. 
Literally thousands of people--cops, soldiers, firemen, Federal agents, 
public health workers, and volunteers--put in hundreds of thousands of 
hours in harsh weather and cold to keep the Games safe. Was that 
investment worth it? Absolutely. Because the Olympics also carries the 
dreams we have of a world at peace--the world we are trying to create 
for our grandchildren and those who come after. It is dream shared by 
all nations who send their finest to compete in the Olympics. And it is 
a dream we saw and felt on February 8, 2002 when, in spite of the 
threat of terrorism, every nation invited to our Games still sent their 
Olympic team and the athletes of the world marched together into 
opening ceremonies. Now, more than ever, the Olympic athletes are 
lights of inspiration and hope in our world--we cannot let terrorists 
put out that light.
    I look forward to answering any questions you may have.

    Senator Smith. Governor, you said if you were asked, that's 
what you would share. Have you been asked?
    Governor Romney. I've not been asked to assess the 
readiness of the Games in Athens. I certainly am asked whether 
we're ready in Boston for the Democratic National Convention 
coming our way. And you can be sure that these are the same 
questions which I have already asked and which the state and 
local authorities, together with the Federal authorities, I 
think, are pretty well on track to answer affirmatively.
    Something which happened with Presidential Decision 
Directive 62 was that the Secret Service, prior to our Games, 
was put in charge of planning for a national special-security 
event. And in the person of Mark Camillo, who you'll be hearing 
from in a moment, we found a person highly capable in bringing 
together all of the agencies--the intelligence agencies, the 
prevention agencies, the protection agencies. All of these 
folks came together and worked together on a very 
collaborative, unified basis. Having an agency in charge, with 
a person responsible, made an enormous difference for us. And 
if I were to attribute our success in having an effective 
security program at the Games to any one thing, it would be 
that centralized command and centralized responsibility, where 
everyone knew who was in charge of putting the plan together, 
and got buy-in among the various agencies that were involved.
    Senator Smith. The checklist you shared with us, was it 
developed before the Salt Lake Games, or was it just the 
lessons you took away from the Salt Lake Games?
    Governor Romney. It's the lessons I'd take away from the 
Salt Lake Games. We went into the Games with those things very 
much in mind, and each of those areas were covered to a certain 
degree. I think, as time went on, we recognized that 
intelligence should play a more and more important role in the 
work that we were doing to secure the Games. And given the 
nature of a public hearing, I'm not at liberty to describe the 
intelligence effort that was carried out. But the intelligence 
effort was virtually under the management of the FBI, and they 
did a superb job of bringing together teams of personnel across 
the Nation, and carrying out the kind of in-depth, well-in-
advance intelligence work that you'd hope would precede an 
event of that nature. And that is the real deterrent for 
terrorist activity, is finding the bad guys before they attack. 
And the concrete barriers and the perimeters, those are 
important, as well; but we recognize that no number of concrete 
barriers, no number of perimeter personnel, no number of mag-
and-bag checks will prevent a determined terrorist that decides 
to attack a particular area. But if intelligence work has been 
done effectively, we can find those people and keep them away 
from the event.
    Senator Smith. Governor, as you can imagine, even holding 
this hearing, for which--the Commerce Committee has 
jurisdiction over the U.S. Olympic Committee--but in holding 
this hearing, there are a lot of people nervous about us even 
discussing this in the open. But it is certainly our hope that 
by shedding a little light and, where necessary, creating a 
little heat, that we can do our responsibility, in terms of 
oversight.
    And you may have already heard, there are some athletes--
even Mark Spitz--who have openly expressed concern about 
security in Athens. Do you have reason to allay those concerns 
and fears from what you have seen? Based on your procedures, 
are procedures going ahead that ought to give athletes and 
spectators some confidence?
    Governor Romney. Well, I know that following 9/11, we had a 
number of athletes around the world that were very concerned 
about coming to the United States. And we, then, invited the 
security directors of the respective Olympic committees of 
various countries to come in and meet with the Secret Service 
and meet with our own planning team, and we took them through 
what our preparations had been. Following that review, the 
athletes said, ``OK, we're comfortable with what you've done.''
    And prior to that review, of course there was some concern. 
So I wouldn't be surprised that some athletes who had not seen 
the full extent of the preparations would have concern, and 
that may well be a valid and appropriate state of mind.
    Hopefully, after they've had the chance to review the 
provisions that have been taken in preparation for the Games, 
they'd have a much higher degree of confidence and sense of 
security.
    I would note that in our own preparations we placed a great 
deal of attention on protecting the athletes--in the village, 
in their transportation, and then at the venue itself, where 
they competed. We were relatively highly confident that 
athletes were safe in the village, in transportation and in the 
venue. Where our concerns grew is when the athlete left the 
village on their own, or perhaps their event was over and they 
decided just to mingle with the population-at-large or go to a 
celebration site or a concert site. In those places, the level 
of security could not, by definition, reach as high a level as 
we had in the village itself. So we literally had a system that 
gave us a very high degree of confidence that the athletes 
themselves would be secure. And, of course, there's no such 
thing as a hundred-percent guarantee in the world of security, 
but the athletes came as close to that as I think we thought 
was humanly possible.
    Senator Smith. I think you mentioned, Governor, that your 
budget for security was in excess of $300 million, but you did 
not spend all of that. Is that the accurate number?
    Governor Romney. Actually, the number is one I'll look to 
the GAO to actually prepare for us, because the bulk of the 
spending for security was spent by the Federal Government, and 
they did not write us a check. They, instead, provided security 
resources. So, for instance, we had an air CAP, a military 
aircraft, in the air to assure that no aircraft would come into 
the Salt Lake City area during key times that was on an 
inappropriate mission. We had military personnel that were 
searching vehicles and doing checks on bomb presence. We had 
Secret Service personnel throughout Salt Lake City. Literally 
thousands of Federal agents moved into Salt Lake City, FBI 
agents and Forest agents, and so forth--Forest Service agents. 
These individuals were being paid for by their respective 
agencies and departments, and the funding came from Congress. 
So none of that money actually came through our books.
    Senator Smith. So you don't fully know exactly what would 
be the total cost. Maybe it can't even be calculated----
    Governor Romney. That's right. I----
    Senator Smith.--in terms of man hours.
    Governor Romney.--I think that's really true. So, for 
instance, we know that the Federal Government pays a pretty 
modest stipend to the members of the National Guard. What is 
the true cost of a National Guardsman being there? Their 
uniform, their housing, their equipment, their radios, and so 
forth--it probably exceeds even the amount that is spent by the 
Department of Defense. So I think it's fair to say that we know 
that figure was in the hundreds of millions of dollars. Our 
estimate is in excess of $300 million was spent for the 
security for our Games, and some estimates place it as high as 
a half a billion dollars.
    Senator Smith. Well, assuming the high number of a half a 
billion dollars, certainly the Greeks are commended for 
budgeting $1.2 billion for security. And who knows how that 
will fully be calculated, in terms of its implementation, 
because they have reached out to NATO. There'll be lots of 
European and American forces there to be helpful. And yet I 
think even--well your point is, even with all the money that's 
there--and clearly the money is there to provide security--
there's no such thing in life as a hundred-percent guarantee.
    Governor Romney. I think that's absolutely right. And each 
individual makes the assessment of whether they're going to 
participate in an event or participate in a lifestyle when they 
recognize that there is risk involved. These athletes, what 
they do day to day in some of their sports is so scary to me, I 
can't imagine doing it. Those that go off the ski jump, can you 
imagine doing something like that?
    Senator Smith. I've done men's aerials before, but never on 
purpose.
    [Laughter.]
    Governor Romney. So, you know, people will assess, you 
know, the risks that they will take in their life, but I think 
they--what they expect from organizers, and from a country 
hosting something like an Olympics, is that everything that's 
humanly possible to be done has been done to provide for their 
safety. And what they don't want to hear about is that efforts 
were uncoordinated, that intelligence wasn't shared, that there 
were gaps in the security program, that measures weren't taken 
that could have been taken. That's what I think people have a 
right to expect, is that government will provide a safety net 
which has no flaws and no major seams or gaps. And I think we 
came close to achieving that in Salt Lake City. I hope we did. 
And I hope that the folks organizing the Games in Athens are 
doing that. But it's clear that they're spending the money. 
They're asking for help.
    The person who helped organize our security effort in Salt 
Lake City is also working in Athens to help organize their 
effort. He knows how it worked in Salt Lake. He can certainly 
take lessons learned and apply them in Athens. And I would look 
to people like him and others to make that assessment: Is 
everything in place that can be in place to provide for the 
safety of athletes and spectators?
    Senator Smith. And if the answer is yes, your encouragement 
to our athletes is, ``Focus on athletic success. Don't worry 
about your personal security.''
    Governor Romney. You know, every athlete has to make their 
own assessment as to what's right for them. My estimation is 
that the athletes will be the safest individuals that one could 
possibly imagine at an Olympic event, and if they ever expect 
to compete, they recognize that there will be security risks. 
But if the organizers are ready, and they've spent the money, 
as they have in Athens, and the plan is complete, then I'd 
focus on the toughest challenge they'll have, and that's 
beating the rest of the world.
    Senator Smith. Governor, thank you for your time, but, even 
more, for your expertise and your history in this great issue. 
We're mindful you've got other things to do, and we appreciate 
that you would share your history with the U.S. Senate.
    Thank you, Governor.
    Governor Romney. Thank you, Mr. Chairman.
    Senator Smith. We'll call, now, our next panel. It consists 
of Mr. Mark Camillo, the Director of Homeland Security, 
Washington Operations, of the Lockheed Martin Corporation; Mr. 
David Maples, Johnson, Maples, and Associates, of Atlanta, 
Georgia; Mr. Steven Lopez, a U.S. Olympic Athlete in 
Taekwondo--we appreciate this great athlete being with us; and, 
also, the world-renowned Carl Lewis, U.S. Olympic Athlete in 
Track and Field, perhaps our most decorated athlete in recent 
history. Gentlemen, we thank you all for your time.
    And, Mr. Camillo, we'll start with you. The Governor spoke 
of you and all the great work you did in Salt Lake, and I hope 
you can tell us what you're contributing to what's going to 
happen in Athens.

              STATEMENT OF MARK CAMILLO, DIRECTOR,

       HOMELAND SECURITY, WASHINGTON OPERATIONS OFFICES,

                  LOCKHEED MARTIN CORPORATION

    Mr. Camillo. Good afternoon, Mr. Chairman. It's a delight 
to be here, and I hope what I offer to you in the next 5 
minutes or so is of value.
    I am currently serving at Lockheed Martin in a capacity of 
concentrating on homeland security, but of particular interest, 
I believe, to the panel, is my role before I retired from the 
Secret Service. And one of those roles was, particularly, the 
Winter Olympic Coordinator for the 2002 Salt Lake Winter 
Olympics. And I'd like to underscore some things that Governor 
Romney mentioned, because it would be in my best interest to 
leave some of the things he said where they are. He captured 
the feeling that we left with there.
    I'm going to touch on six different areas. And, in the 
theme of this hearing, sir, I would like to put a corresponding 
lesson learned for the Committee to consider.
    The areas that I intend to go over will be--leadership 
roles, is the first, followed by partnerships, operational 
security, human resources, the theater of operation, and 
military support. And this is all in the context of the 2002 
Winter Olympics in Salt Lake City and the nine counties in 
Utah.
    A general note for the group is, I would highly encourage 
you to go to school on previous events; and if there's an 
opportunity for Olympic planners to go visit and get a feel for 
the energy that surrounds actual Olympic Games, that they 
should do it. We did it. We went to Sydney, Australia, Nagano, 
Japan, and we also went on to give after-action briefings for 
the Italians and others who are going to be hosting Games in 
the future.
    The leadership roles, as you might wonder--again, it was 
mentioned why the Secret Service was there, in addition to 
protecting the President and other world leaders. The decision 
directive that Governor Romney mentioned, Presidential Decision 
Directive 62, put the Secret Service in a leadership role for 
operational security at the Federal level. That, in addition to 
the FBI's leadership role in crisis response and intelligence, 
and FEMA's leadership role, in consequence, gave you the trio, 
if you will.
    My lesson learned there, to offer, is, if you have a Class 
A or an extraordinary event, it's in your best interest to put 
together an extraordinary team that has the complementary 
skills and the institutional experience to tackle the event.
    And I qualify that by adding my next point, and that would 
be partnerships. Because although the Federal team that I just 
mentioned would be what would be considered a national special-
security-event package, it can't be complete unless it's 
integrated with the other components, particularly the state 
and local public safety officials and others, such as the 
military support, and certainly the Salt Lake Organizing 
Committee.
    We learned, in Utah, that partnerships were critical. And 
the ultimate responsibility of the Games, in our view, there 
was the Salt Lake Organizing Committee. The glue that held all 
these partnerships together consisted mainly of trust and 
mutual respect. And that was our theme. We know that the 
Organizing Committee never left sight of what it needed to do 
to encourage communication and cooperation. Anytime we had an 
opportunity, there would be a meeting scheduled, organized by 
the Organizing Committee. Conference phone calls were done. And 
we found that any rumors or concerns could be quickly put to 
rest, allowing more time to move collectively forward.
    There were committees formulated. Governor Romney mentioned 
the Utah Olympic Public Safety Command. It was an extraordinary 
gathering of approximately 20 public safety officials of the 
state, local, and Federal. But, also, the Organizing Committee 
was there at the table, which was, again, another example of 
promoting partnerships by key public safety stakeholders.
    And, of course, the lesson learned there is, forming 
partnerships at all the levels is what needs to happen to 
really promote communication. And it does reduce suspicion and 
distrust.
    The operational security portion of this, sir, is what I 
would view as one of the cornerstones to the whole operation. 
It was mentioned: prevention and preparedness. And I couldn't 
emphasize more what Governor Romney mentioned, particularly 
having a very pronounced prevention and preparedness theme to 
the security operations around the official venues. The core 
components would include physical security, hazardous materials 
detection, as well as explosive-ordnance detection, and access 
control. And, as long as when you were working in partnership 
with organizations such as the host committee--in this case, 
Salt Lake Organizing Committee--our planners worked closely 
with their planners so that opportunities to put security 
features in a site--in this case, a venue--was done early 
enough so that they were done efficiently and not in an 
obtrusive way. So with all security components in place before 
the gates opened, the venues were virtually transformed into an 
operationally clean, secure environment. And this is, in 
essence, a filter for preventing acts of terrorism and 
criminality for that part.
    The lesson learned, of course, is to have a robust 
prevention-preparedness capability at the official venues in 
order to dramatically reduce any chances of terrorism.
    The fourth item of our six is human resources. With a very 
limited number of law enforcement officers available in Utah at 
the time, and a projected need of approximately twice the size 
of the officer strength in the state, it was very clear that 
the Federal Government would have to come and work in concert 
with the state and local to create a comprehensive plan. And 
what we ultimately did there was secure the ten competition 
venues and selected non-competition venues with Federal 
officers.
    We were faced with challenges such as different job 
classifications. We brought officers from five different 
Federal departments, consisting of 13 different agencies, 
together. Some were officers, some were agencies--different job 
classifications. We had Interior Department National Park 
Service rangers coming in from Wyoming. We had DEA agents from 
Miami. We had to find ways so that we could match their 
requisite skills and their interests and their abilities to the 
different security posts. And we did that. And that really 
helped. It kept the morale up.
    We had pre-advanced learning CDs that were sent out to get 
them ready. We had cold weather gear already designed and 
issued when they got there. There was a lot of things we did to 
make sure that they were happy, well fed, and rested, and eager 
to work.
    The fifth item out of six, sir, is the theater of 
operation. We had nine counties, so it was a tremendously large 
area that we had to work in. And the Organizing Committee 
maintained an official list, sir. And this is something that 
has to be adhered to. One of the things we found is that there 
will be a lot of cultural events and activities that will pop 
up around an Olympic event. The charter of the Olympic security 
at the Federal level is working primarily--when it comes to 
operational security--would be the operational security at the 
respective venues. So before those in outlying areas decide to 
host a cultural event or an event of Olympic significance, I 
would strongly encourage them to look at the existing security 
resources and public safety resources, because when it comes 
down to the end, when we're matching resources with dollars and 
actual people to come in and do these jobs, there might not be 
enough to go around. And, let's face it, when we are looking 
for potential terrorism acts, it's a mass gathering of 
significant events that draws attention that's what they're 
interested in.
    The last item, sir, is military support. We know that the 
military is generally perceived as a quick fix when you have an 
extraordinary--or a size event that exceeds anything you've 
ever seen. But we do know, and we did learn, that the military 
can support, in limited ways, based on law and based on 
availability. So we found that working closely and early with 
the military, and distinguishing the regular military forces, 
under Title 10, versus the National Guard Forces, in Title 32, 
was very beneficial.
    My lesson learned to show you there, sir, is that they are 
valuable, but they do have restrictions. And it's imperative to 
have a commanding officer of a Joint Task Force onsite early to 
make decisions; otherwise, you might not see the Olympic 
support when you need it.
    And having said that, sir, I hope my comments and my 
lessons learned that I shared were of value, and I applaud what 
you're doing here, and I'd be happy to answer any questions.
    [The prepared statement of Mr. Camillo follows:]

   Prepared Statement of Mark Camillo, Director, Homeland Security, 
       Washington Operations Offices, Lockheed Martin Corporation
    Good afternoon Mr. Chairman, I am Mark Camillo, currently serving 
as a Director in the Washington Operations Offices of Lockheed Martin 
Corporation, working in the area of Homeland Security, here in the 
National Capitol Region. Although my exposure to advanced technologies, 
systems and services since joining Lockheed Martin have added to the 
depth of my knowledge relative to public safety and security, one of my 
previous assignments while serving in the U.S. Secret Service will 
hopefully be of particular value to this hearing.
    From 1999 through 2002, I served as the Secret Service Winter 
Olympic Coordinator for the 2002 Salt Lake Winter Olympics. This 
assignment entailed the designing, planning and implementing of the 
Federal operational security plan for the Games.
    Protecting Olympic games was not viewed as a new idea as the 
security plan was being contemplated for Salt Lake. Protocols and 
traditions passed on from previous Olympic security planners lent 
credence to studying after action reports from previous games and 
visiting/interacting with Olympic security officials who were either 
preparing or actually executing their plan. Hence, traveling to observe 
an actual Olympic event was extremely beneficial.
Leadership Roles
    You might wonder what actual role the agency responsible for 
protecting the President and other key Government Officials had for the 
Salt Lake Games. The Secret Service had a significant role in the 
security operations of the Games, due a Presidential Decision Directive 
executed in 1998, which put the Secret Service in the lead Federal role 
for operational security at National Special Security Events (NSSE). 
When any event is designated a NSSE, the Service is joined by the FBI, 
who has the crisis response lead, and FEMA, who has the consequence 
lead.
LESSON LEARNED: Have a team selected with complementary skills and the 
institutional experience to tackle an event of this proportion.

Partnerships
    Although the Federal team mentioned in the NSSE ``package'' sounds 
complete, they become integrated components, after joining the state 
and local public safety planners, who have an equally vested interest 
in a safe and successful event.
    We learned in Utah that partnerships were also critical with the 
Salt Lake Organizing Committee (SLOC), who had the ultimate 
responsibility for the Games, and other key planners such as the 
Military and others in the public and private sector. The glue that 
held all these partnerships together consisted mainly of trust and 
mutual respect.
    Although Federal and State efforts to create sanctioned gatherings 
were largely successful, SLOC never lost sight of the value of 
communication and went to great efforts to ensure that all those who 
represented the key entities had ample opportunities to communicate, 
whether it was at a weekly scheduled meeting or a daily conference 
phone call. What we found was that rumors or concerns could be quickly 
put to rest, allowing more time to move collectively forward.
    Many committees were formulated. Some were in a steering capacity, 
and some were in a working capacity. The most prominent one was the 
Utah Olympic Public Safety Command. A State legislated entity that had 
representation from all the counties affected by the Games. 
Additionally, key Federal partners were participants, as well as a 
representative from SLOC. Again, another example of promoting 
partnerships with all key public safety stakeholders.
LESSON LEARNED: Forming partnerships at all levels and providing the 
opportunity to communicate reduced suspicion and distrust.

Operational Security
    What might be viewed as a new approach to securing the 2002 Winter 
Olympics was the inclusion of a very pronounced prevention and 
preparedness theme to the security operations in and around the 
official venues. Core components including physical infrastructure, 
HAZMAT/Explosive Ordinance Detection and access control were weaved 
into the general design plan of the venues. SLOC understood and worked 
in unison with the security planners to place security elements where 
they provided most value. The security planners in turn, studied 
existing site plans developed by SLOC in the early stages to find ways 
to introduce security elements into the venues in the least obtrusive 
way. With all security components operational before the gates opened, 
the venues were transformed into ``operationally clean security 
environments'' that provided in essence a filter for preventing acts of 
terrorism or criminality within the site.
LESSON LEARNED: Having a robust prevention and preparedness capability 
at the official venues dramatically reduced the chances of terrorism or 
criminality disrupting the event.

Human Resources
    With a very limited number of state law enforcement personnel 
available, and a projected requirement of approximately twice the size 
of the state law enforcement workforce for overall public safety, a 
decision was made to turn to Federal agencies for assistance. We were 
faced with challenges such as different job classifications (Officer 
vs. Agent) and commissioned authority. Also, equally challenging was 
drawing from all over the United States, which potentially meant 
assigning a Deputy U.S. Marshal from Miami to a security post on the 
side of a mountain, or placing a U.S. Park Ranger from Wyoming at a 
checkpoint in an ice skating venue. The solution to this problem was 
identifying representatives from each agency who worked in advance with 
the Olympic planners to match skills and interests with Olympic 
security assignments. Consequently, Federal officers who had skills and 
abilities conducive to the alpine venues were assigned accordingly. 
Distance learning CDs were developed and forwarded to pre-selected 
officers to prepare them for their assignments. Cold weather gear was 
also procured and issued once Officers arrived for duty. This also 
added to boosting morale since most assignments lasted on average of 
three weeks.
LESSON LEARNED: Once security posts are identified, matching officers 
who have the requisite skills, experiences and providing equipment 
greatly increases job performance and satisfaction.

Theater of Operation
    What distinguished the Olympic activity across the nine Utah 
counties was whether an event was an official venue or possibly a 
related event of a cultural significance that would also draw a mass 
gathering of participants and/or spectators. When determining the 
status of a venue, SLOC maintained an official venue list. This 
consisted of the ten competition venues and approximately four other 
venues that were critical to the functioning of the Games. When 
determining the resources needed for the Olympic security plan, the 
funding required was matched to the official Olympic venues. 
Consequently, there were no surplus resources for discretionary usage. 
With valid concerns raised by those local authorities who's ``Olympic 
events'' could be viewed as possible terrorist targets, last minute 
efforts were made to find resources that would provide an enhancement 
to their respective security plans.
LESSON LEARNED: Review all events either in proximity to the official 
venues or in the region and determine as early as possible if existing 
security resources can adequately secure the event. Public officials 
must weigh the potential consequences of a lack of adequate security 
when encouraging the hosting of an Olympic related event.

Military Support
    The use of the Military seems at face value like an obvious 
solution when there is a large requirement for personnel or equipment. 
Requests made to the Defense Department would presumably be met with an 
enthusiastic response to assist in the Olympic Mission. This, however, 
was not the case. Reviews of U.S. Military personnel and equipment in 
previous U.S. hosted Olympics revealed support that in retrospect could 
not be justified. The Salt Lake Winter Olympics was armed with a 
supporting team of Military professionals primarily from both the U.S. 
Joint Forces Command (JFCOM) and the Utah National Guard (UNG). 
Legislation provided tight controls over what could be provided. In 
some cases, specialized support was provided in areas like air space 
security, but generally speaking, the greatest areas of support 
provided for operational security were in the areas of equipment 
assistance and explosives detection support. Both of which became 
critical to the enhancement efforts set in motion after the attacks of 
September 11th. While the Title 10 forces (JFCOM) had strict rules 
prohibiting their involvement in law enforcement functions, the Title 
32 Forces (UNG) had more flexibility in the area of law enforcement 
support. The flow of military communication and support increased 
significantly when a Joint Task Force--Olympics was ultimately 
established.
LESSON LEARNED: The military can provide valuable support, but has 
restrictions on the types of duties they can perform. Having a command 
level officer with decision-making authority on site is imperative if 
there is any expectation that military support will be provided. 
Military and civilian planners should jointly review requests before 
assistance is authorized.

    In closing, I hope my comments and the six noted lessons learned 
provided value to the hearing.
    I applaud the Committee's efforts to bring to light past security 
practices that might be useful for future Olympic games.
    I would be happy to answer any questions.
    Thank you.

    Senator Smith. Thank you, Mark. And I'm aware you're no 
longer with the Secret Service. Is that correct?
    Mr. Camillo. Yes, sir. Recently retired.
    Senator Smith. But are you mindful of--the lessons you've 
learned, that they have been sought out in Greece, and that 
they're being implemented? Do you have any such knowledge?
    Mr. Camillo. I can tell you that there is a transfer of 
institutional knowledge that had occurred. I can tell you that 
there were officials from Greece that were onsite in Utah. That 
is a tradition. It's a protocol, and they adhered to it. And I 
do know, I believe, that there are elements within the Federal 
Government that are working as a conduit to make sure that that 
information, as Governor Romney mentioned, has been passed, to 
help them. Although a Summer Games is different than a Winter 
Games, so there are some nuances that they won't be able to 
take complete advantage of.
    Senator Smith. I only mention that because we will hear in 
detail, specifics, what is being done, between our Nation and 
Greece, in preparation for these Games, and lessons learned, 
but I do want--I don't want to lay the impression that a lot of 
work is being left undone, because it is being done.
    But one of the things you hear of, over here in our media, 
is, much of the construction work that needs to be completed is 
still undone in Greece, and I wonder if you have any concern 
about stadiums uncompleted and things yet to be done, cement to 
dry as athletes are lining up. What kind of problems does that 
present, in terms of security? Is that of concern to you?
    Mr. Camillo. Well, as I mentioned in my comments, sir, the 
earlier that security features can be weaved into the plan of 
the event, the less intrusive they will be, the more efficient 
they will likely be. So if it has to come in late, it's 
recognized generally as a retrofit. Now, I certainly can't 
comment on if that that happens to be the case with the Greek 
Games, but I will say that if the security planners can partner 
with the architects of the event early on and get the security 
features on the blueprints at the design level, that is when 
you'll have a clean, efficient plan.
    We, in Utah, were facing one venue that was coming up late 
for construction, but it was the Medals Plaza. We had complete 
faith that it would be done on time, and it was done on time. 
And, fortunately, we stayed on target with the blueprints and 
were able to achieve that security plan toward the end of our 
planning effort.
    Senator Smith. It's interesting to note that even in 
Atlanta, where the security was wonderful, that there was this 
one explosion at a soft target. Did you try to minimize soft 
targets in Salt Lake?
    Mr. Camillo. The soft target that I recognized that term to 
be occurring, some were outside of the recognized secure zones. 
In the case of Atlanta, I understand that that occurred in an 
area that was not a part of the secure zones.
    Senator Smith. That's correct.
    Mr. Camillo. I do know that the state and local public 
safety departments have the responsibility to cover an area out 
and around the official venues. That's why it is so critical to 
give them the ability to develop a strength in their plan 
around the official venues. If the state and locals would have 
to secure the official venues and all the outlying areas 
adjacent to or in between the official venues, it would be an 
almost impossible task.
    Senator Smith. Thank you very much, Mr. Camillo. We 
appreciate your time and your testimony here today.
    Mr. Camillo. You're welcome.
    Senator Smith. David Maples, former FBI agent, and also 
intimately involved with these preparations, and we thank you 
for your presence and invite your testimony.

                 STATEMENT OF DAVID G. MAPLES, 
                JOHNSON, MAPLES, AND ASSOCIATES

    Mr. Maples. Thank you, Mr. Chairman.
    I do appreciate your invitation to appear before you and 
discuss Olympic security measures taken by organizing 
committees and public officials on behalf of those who have 
attended or participated in past Olympics.
    I have listened to Governor Romney and Mark, and I heartily 
concur with all the recommendations that they have set forth 
and the lessons that they have learned. So I think I would like 
to take my 5 minutes and maybe put a historical perspective of 
the development of security during the Summer Games and the 
recent events.
    My view is that there are many factors that govern or 
influence security planning and operational security measures 
taken by Olympic Games host nations that cause each one to be 
unique. National customs and culture, governmental structure, 
applicable laws, jurisdictional authorities, available assets, 
and world events play a large role in the approach to, the 
scope of, and the final operational structure given to any 
Olympic security program.
    As you mentioned, Mr. Chairman, prior to 1972, Olympic 
security was more a regulatory policing in nature than one of 
secure screening and preparation to respond to worst case 
scenarios, as we know the preparation to be today. The attack 
on the athletes in Munich precipitated changes that affected 
security planning in more ways than just having stronger 
perimeter controls in the village and the venues.
    The 1996 Olympic Games in Montreal lost money and caused 
heavy public debt, as all well know. Moscow was already 
committed to host the Games in 1980, but only two cities bid 
for the 1984 Games, and Los Angeles won those by default. Los 
Angeles citizens were not willing to chance having to shoulder 
Olympic debt costs, and the IOC was forced to award the 
financial liability of the Games to a private organizing group, 
which was unprecedented.
    Certainly for Olympic Games held in the United States, I 
believe that these events set the stage for the organization of 
security and the expenditure of funds and assets supporting 
security for those in subsequent Games because it set a 
relationship for years to come between public safety, the 
government, and the Organizing Committee, which I believe that 
Salt Lake undertook to modify to advantage.
    Also, in a historical sense, the makeup of organizing 
committees varied greatly from host to host. In many countries, 
the governments from those countries are integrally involved in 
the organization of the Games through the Organizing Committee 
itself, and that generally is reflected by increased 
integration of government security forces in the overall 
security plan. And I believe that's the case in Athens.
    World events and the fact that Olympic Security Games--
excuse me--the Olympic Games have increased in size and the 
number of countries participating, have caused each succeeding 
Olympic security program to consider protection from, and 
response to, threats not previously considered in Olympic 
Games. More technology, more personnel, more assets and 
logistics, more expense, and more need for national and 
international support and cooperation has been the trend in 
Olympic security, and necessarily so. Now host nations direct 
their most sophisticated public safety assets to support 
security efforts for the Olympic Games, and the international 
cooperation and support is critical to the host. Integration of 
medical, mass care, shelter, and emergency-management 
capabilities into security considerations is now necessary.
    During recent Olympic Games, the security apparatus, in its 
final form, however conformed, has represented virtually all 
services that the public safety community of that locality is 
capable of providing. Providing security coverage for the 
Olympic Games is complex, and it is ever-escalating for the 
responsible officials.
    And I might add, Mr. Chairman, that my first Olympics was 
1984 in Los Angeles. And, like other planners, we decided that 
we should view Games prior to those for their experience and 
what we might do. The previous Games, in Atlanta, was 1932. The 
security at the 1932 Games in Atlanta consisted, as we 
understood, of a squadron of motorcycle officers for traffic 
control, and a cowboy on horseback to ride around the Olympic 
Village to shoo the autograph-seekers away.
    [Laughter.]
    Mr. Maples. I think that our involvement in security, 
either unfortunately or necessity, has increased through the 
years to the case now where you've mentioned that Athens will 
probably be spending in excess of $1 billion for security, and 
employing not only all their national assets, but assets of 
other nations, as well.
    In addition to what Governor Romney and Mr. Camillo 
mentioned, there are just a couple of lessons learned that I 
would like to mention to you, sir. One is that it is absolutely 
imperative to obtain the intelligence and distribute it to 
users who need to have that information at the Games. We all 
know that collecting intelligence is one thing, distributing 
intelligence is another problem. And the distribution is the 
most difficult side of that equation, I do believe.
    Another thing is that public safety officials have to be 
very flexible, because the Organizing Committee is constantly 
changing what it's doing, what its plans are, even what venues 
will be employed, sometimes even going so far as to what towns 
will be hosting specific events. It's imperative that public 
safety be brought in on the front end and that senior officials 
from government have the necessary interest and involvement 
from the very beginning--and I believe that means four to 5 
years ahead of the Games--in order to keep the public safety 
abreast of what is an ever-changing situation around them from 
the organizers.
    I believe that the government officials should have, at 
least in the United States, probably a greater say in how the 
accreditation is run. Accreditation is the--of course, the 
badge that allows athletes and other members of the Olympic 
family and official guests and necessary support people into 
the venues. That is a system that is administered by the 
International Olympic Committee, sometimes without very much 
input from law enforcement or public safety. And I believe that 
public safety officials should be more involved in that 
particular process.
    As Mr. Camillo mentioned, integrating military in security, 
because of our different historical roles, can be problematic. 
And setting up the system for that integration on the front end 
of planning, rather than, as he mentioned making a quick fix 
out of it, I believe is imperative.
    And the last thing that I would mention, Mr. Chairman, is 
that I believe that for public safety officials to obtain 
information from the national Olympic committees regarding 
their delegation's specific needs and VIPs that they have 
attending that would affect governmental security forces, 
should be made available probably more quickly that it is now, 
recognizing that in many cases the national Olympic committees 
themselves don't know who will be attending until the last 
minute. But I think that a mechanism for increasing that flow 
of information would be something necessary for future Games.
    So I appreciate the opportunity to speak to you, sir, and 
I'd answer any questions.
    [The prepared statement of Mr. Maples follows:]

 Prepared Statement of David G. Maples, Johnson, Maples, and Associates
    Chairman Smith, Members of the Committee:

    I appreciate the invitation to appear before you to discuss 
security measures taken by organizing committees and public officials 
on behalf of those who attended or participated in past Olympic Games, 
and how lessons learned from these past events may serve to ensure 
better security for future Olympic Games.
    Given the enormity of the Games, including the extraordinary number 
of nations that participate, and its worldwide audience, the Olympic 
Games present a tempting target for a wide variety of disruptive 
activities, from simple demonstrations to violent acts of terrorism.
    Of course, the goal of the host country is to provide a secure 
environment for the staging of the Olympic Games. The success of this 
endeavor is critical to the presentation of the world's largest and 
most widely viewed sporting event.
    There are factors, such as applicable laws, governmental structure, 
jurisdictional authority, available assets and culture, that govern or 
influence planning and ultimately the security measures taken by 
federal, state and local level officials of any host nation. 
Additionally, the International Olympic Committee (IOC) is an 
international non-government, non-profit organization that owns all 
rights to the Olympic Games and dictates specific rules under which the 
Games are organized and presented. It is also the umbrella organization 
of the Olympic Movement which includes the National Olympic Committees, 
International Sports Federations, and various other organizations and 
institutions recognized by the IOC as well as the host city organizing 
committee.
    The makeup of past organizing committees has varied greatly, from 
including direct government representation to that of being solely 
private, as is done in the U.S. During the course of its planning, the 
organizing committee makes many decisions, such as venue selection, 
venue design, policies regarding admission to events or access to 
athlete housing and training sites, pre-event protection of property 
and assets, Olympic family housing, accreditation, and use of private 
security, that impact security planning measures. The host country 
government structure and its representation, or lack thereof, in the 
organizing committee affects the degree of authority and participation 
government security forces exercise inside properties and facilities 
owned, contracted to or used by the Olympic family.
    Government Olympic security efforts are focused on issues of public 
safety. In general terms, preparations are divided into topics of 
Intelligence, Investigation, Physical Security, Emergency Response to 
Incidents, and Mitigation of Incidents. Due to unique jurisdictional, 
legislative and budgetary issues as well as widely different 
capabilities, all agencies recognize that planning and operational 
execution requires an immense amount of interagency communication and 
cooperation.
    The tragic incident during the 1972 Olympic Games in Munich, 
Germany certainly changed the world's view of the standard of security 
necessary for the Games. The subsequent expectations of the IOC, 
athletes, delegations and spectators for extraordinary security at 
Olympic Games have been met by successively increased government 
commitment to security and expenditures. In recent years, as terrorist 
activity has increased, and the methods used to strike have become more 
sophisticated, efforts to protect the Games have become more complex 
and expensive.
    I would like to briefly illustrate this to you using examples of 
four recent summer Olympic Games.
Los Angeles--1984
    When Tehran, the only other city bidding for the 1984 Olympic 
Games, withdrew, Los Angeles was awarded the Games by the IOC, but the 
issue of financing became an obstacle to the city signing a contract. 
In an unprecedented move by the IOC, the financial liability for the 
Games was removed from the City of Los Angeles and placed on a private 
organizing committee. The Los Angeles Olympic Organizing Committee 
(LAOOC) was the first private committee, without official ties to 
government, to organize and operate the Olympic Games. As such, LAOOC's 
philosophy was to be as economic as possible while still presenting a 
complete Olympics. The presentation of the Games was financed by the 
private sector, without government subsidies or taxpayer contributions, 
but the costs of protecting the Games greatly exceeded agencies normal 
operating budgets.
    This greatly impacted federal, state and local organizations that 
had a duty to provide for the public safety. Use of as many existing 
facilities as possible spread the core of the Games over seven southern 
California counties, with preliminary soccer events in Massachusetts 
and Maryland. By and large, LAOOC did not request specific security 
services from government and therefore was not obligated to pay for 
them. Only a small portion of local governments' security costs were 
financially assumed by LAOOC.
    Before the Organizing Committee was actively involved in security 
planning for the Games, the Los Angeles Police Department, the Los 
Angeles County Sheriff's Department, and the FBI took the lead and 
coordinated security planning. The cornerstone of the planning, which 
continued through the Games, was the recognition of jurisdictional 
autonomy. Sixteen topics formed the basis for the security planning 
structure. They were Accreditation, Air Support, Bombs/Explosive 
Devices, Communications, Community Relations, Crime Prevention, 
Criminal Justice, Dignitary Protection, Emergency Response, 
Intelligence, International Entry, In Transit Security, Olympic Village 
Security, Traffic Control, Training, Transportation and Venue/Vital 
Point Security.
    The Federal Government supplemented local law enforcement agencies 
with approximately $50 million of logistical support equipment that 
they needed to provide adequate security for the Games, including 
communications equipment, helicopters, intrusion detection systems for 
the villages and miscellaneous medical equipment.
    The security department of LAOOC, which had no law enforcement 
authority, took the responsibility for protecting property and assets 
belonging to LAOOC, providing accreditation control at the villages, 
venues and training sites, providing security for IOC officials, and 
protecting special interest areas such as press and broadcast zones and 
accreditation, illegal substance control and computer centers.
    Recognizing that many more agencies had need for Olympic related 
intelligence than were involved in intelligence collection, the FBI 
hosted a center that received information from national, state and 
local agencies, and distributed pertinent information to agencies and 
organizations with protection responsibilities.
    In all, some 7,000 law enforcement officers were committed to the 
Games, with substantial Federal assets poised to respond to breaches of 
security, mass medical emergencies or threats that were beyond the 
capacity of local or state agencies.
    The Los Angeles Olympics established the public safety-organizing 
committee relationship that has in large measure carried through 
subsequent Olympic Games hosted in the United States.
Seoul--1988
    The presentation of the XXIVth Olympiad was fully supported and 
directed by the Republic of Korea Government. The Seoul Olympic 
Organizing Committee (SLOOC) was formed in 1981.
    The organizational structure of security for the Olympic Games was 
divided into two parts. The SLOOC had a security department that was 
responsible for overall coordination between the SLOOC Games Operations 
Division and the government security. It had planning responsibility in 
areas of opening and closing ceremonies, 34 competition venues, 72 
practice sites, the cultural events and the Olympic torch relay.
    The government security operation was headed by the Committee for 
Security Measures. This was the policy making body for security for the 
Games and was chaired by the Director of the Agency for National 
Security Planning (NSP) with members from 12 government agencies.
    Day to day planning and operations for security of the Games 
focused at the Security Coordination and Control Headquarters which was 
responsible for overall planning, coordination and control of security 
operations for the Olympic Games. It was headed by a deputy director in 
the NSP with assistant directors for NSP affairs, Korean National 
Police affairs and military affairs.
    There were nine security divisions to address major security 
topics. They were Planning, Counterterrorism, Technical Support, 
Intelligence, Venue Protection, Personnel and VIP Security, Athletes 
Village Protection, Traffic Coordination and Training.
    Physical security duties for the various sites and functions were 
assigned either to the Korean National Police or Korean military units. 
The Korean National Police committed over 47,000 officers to Olympic 
security and the military committed over 42,000 personnel.
    Before and during the Olympic Games, there were approximately 
42,000 U.S. military personnel assigned in the Republic of Korea. The 
U.S. military Olympic security responsibilities related primarily to 
the protection of U.S. military personnel and property. It was 
proactive in training and exercise with the Korean military.
    The 1988 Games underscored the necessity for cooperation and mutual 
support in the international community of law enforcement, not only in 
training matters, but in the execution of the security itself. For 
example, air travel was, and will continue to be, a primary means of 
transport to an Olympic host country. In a time before the high level 
of screening that is in place today, not only did the host country have 
stringent security, but obtained the cooperation of other airports that 
formed the feeder system to Seoul to participate in the security 
envelope.
Barcelona--1992
    The makeup of the Barcelona Organizing Committee (COOB'92) 
reflected the active participation of the Spanish Government in the 
planning and operation of the 1992 Games. COOB'92 was composed of 
representatives from Spain's Olympic Committee, Barcelona City Council, 
Generalitat of Catalonia and the Spanish Government. The mayor of 
Barcelona was the president of COOB'92.
    COOB'92 formed a security department to identify and resolve 
organizing committee security issues during the planning phase to 
develop COOB'92's portion of the Master Security Plan and to implement 
COOB'92 security responsibilities during the Games.
    Spain constituted the Higher Commission for Olympic Security in 
June, 1987 with the Secretary of State for Security as chairman and 
charged with the responsibility of directing, planning, preparing and 
implementing security operations. In 1988 a security model was adopted 
that integrated public and private resources under the authority of the 
Commission for Olympic Security and integrated the efforts of the 
National Police, the Guardia Civil, the Mossos d'Esquadra (Catalan 
Police), the Barcelona City Police, other local police forces, the 
Army, the Navy and the Air Force.
    The administrative instrument was the Olympic Security Master Plan 
which consisted of 86 security project areas from national issues, such 
as intelligence, frontier security and control of territorial waters to 
Games specific issues, such as Olympic village security, accreditation 
and information security. Security and emergency response capabilities 
to address specific risks, such as power supply, water supply, 
telecommunications, dangerous materials, transportation systems were 
assigned to the Catelonian government and Department of Public Safety.
    Due to the locations of the venues, training sites, athletes' 
village and official hotels, the National Police had responsibility for 
about 80 percent of the Olympic facilities security. The Guardia Civil 
had jurisdiction at the airports, the port of Barcelona, four venues 
and essential public services such as water, fuel and electric 
supplies, broadcast stations, telephone relay points and transportation 
services.
    Mossos d'Esquadra protected two competition venues and took part in 
crime prevention activities.
    Barcelona City Police took charge of traffic and street public 
safety issues.
    The Army supported the Guardia Civil and COOB'92. The Air Force 
provided protection of the air space and the Navy provided security of 
water competition areas and territorial waters.
    One aspect of the Barcelona Games was the use of cruise ships in 
the port for housing of guests of the corporate sponsors. Extensive sea 
side as well as port side security measures were taken to protect the 
15 large ships.
    Approximately 25,000 law enforcement personnel and numerous support 
personnel were committed to security of the Barcelona Games.
Atlanta--1996
    The Olympic Games trended toward being larger and more complex each 
four years. The Atlanta organizing committee promoted their Games as 
being larger than Los Angeles and Barcelona combined. However, Atlanta 
had far fewer law enforcement assets than either Los Angeles or 
Barcelona.
    Because of the similarity of local government structures in the 
U.S. in 1993, Atlanta adopted the Los Angeles Olympic Security planning 
model, and the security planning topics were virtually the same. A 
concern from the beginning was the shortfall between the generally 
agreed number of security personnel needed for Games the size of 
Atlanta (approximately 30,000) and the number calculated to be 
available (approximately 8,000). Ultimately a combination of state, 
local, federal, military, private security and volunteers were used to 
staff the security functions.
    Other public safety services were part of security operations which 
included expansion of trauma capabilities at local hospitals, 
coordination with area hospitals, coordination with public health 
services and the American Red Cross. The security plan included the 
integration of law enforcement, medical, mass care, shelter, fire and 
emergency management into a consolidated response capability. This 
planning was a critical factor in the organized response to the pipe 
bomb that was detonated in Centennial Park, killing one person and 
injuring approximately 110.
    Many Federal assets were temporarily located in Atlanta for the 
Games, including capabilities to respond to conventional explosives, 
chemical or biological threats and hostage situations.
Closing
    The Olympic Movement tries to contribute to a peaceful better world 
through sport and to generate mutual understanding through a spirit of 
friendship and fair play. As our world becomes more complex, the 
challenges faced by security forces that have the responsibility to 
preserve an environment that allows participants and spectators alike 
to gather at the Olympic Games in the spirit of the Games, continue to 
escalate.
    When Los Angeles hosted the 1932 Olympic Games security consisted 
of police motorcycle officers to direct traffic near the stadium and a 
horseback officer to patrol around the athletes' housing. Athens 
estimates its Olympic Games security costs will be $800 million, plus 
the support of security forces from several other countries. Security 
forces must prepare to prevent or respond to threats unimagined to 
previous Games.

    Senator Smith. Thank you very much, Mr. Maples.
    You offer a unique historical perspective, in that you have 
been a party to the security of both U.S.-sponsored Olympic 
Games and foreign-----
    Mr. Maples. Yes, sir.
    Senator Smith.--sponsored Olympic Games. And I wonder if 
you have seen a qualitative difference, in terms of security, 
one versus the other, or if you would say that, in a post-9/11 
environment, frankly, that qualitative difference would shrink 
out of national pride, and certainly the budgets are being 
reflected, in terms of history. Do you see such a difference? 
And do you have much fear about such differences?
    Mr. Maples. I think the approach can be quite different. I 
think the final result is more nearly the same. For instance, 
some countries equate Olympic security essentially to national 
security, as was the case in Seoul, 1988. The government was 
intimately involved in not only the security preparations, but 
the organizing of the Games themselves. In Barcelona, that 
involvement by the government was there, but to a lesser 
extent. And, of course, in the United States we look at it as 
essentially a private event, supported by the government as 
essary.
    But to specifically answer the question, I think even 
though the approaches are very different, the final result is 
very nearly the same, in terms of security--physical security 
for the venues, security that we don't see behind the scenes 
that is there to respond to any incidents that may happen.
    Senator Smith. I think people take some comfort in that you 
don't see a qualitative difference; you see a national--sort of 
a national pride on the line, so every effort is taken. And I 
hope our athletes take some comfort in that, too.
    We'll now hear from our two great athletes. First, Steven 
Lopez, an Olympic Gold Medalist in Sydney--and then we'll let 
Carl Lewis bat cleanup.
    [Laughter.]
    Senator Smith. Steven?

                  STATEMENT OF STEVEN LOPEZ, 
               U.S. OLYMPIC ATHLETE IN TAEKWONDO

    Mr. Lopez. Well, good afternoon, Mr. Chairman.
    Senator Smith. Thank you for being here.
    Mr. Lopez. Oh, it's my pleasure. It's an honor for me to be 
asked to be here.
    My name is Steven Lopez. I'm the 2000 Olympic Gold Medalist 
in the sport Taekwondo, and I'm currently pursuing winning 
another gold medal at the 2004 Olympic Games, in Athens, which 
will begin a hundred days from tomorrow.
    Taekwondo is an ancient martial art. It's evolved over the 
centuries to become a modern day sport, which involves 
athleticism with mental discipline. And it's been a part of my 
life--it's a way of life for me. It's integrity, perseverance, 
self control, and the indomitable spirit. And, at its core, at 
its foundation, there's a strict moral and ethical code that 
stresses loyalty to God, country, family, and to all mankind.
    I was invited here today to speak--by the United States 
Olympic Committee--to speak on my point of view regarding 
security issues in Athens. And ever since 9/11, you can't help 
but think about security--every time you board a plane, every 
time I travel overseas to a competition in a foreign country; 
but I still board that plane, and I still travel overseas to 
wherever I need to do. And, in the same respect, I feel that we 
should be able to pursue our dreams of representing our country 
at the Olympic Games, at the greatest competition in the world.
    It's my responsibility--I feel it's my duty--to be an 
ambassador every time I go overseas and compete, and especially 
at the Olympic Games. That's what I'm in control of. I'm in 
control of my preparation. I'm in control of being in the best 
shape of my life, both mentally and physically. And, in the 
same respect that I'm confident and have faith in my 
preparation and in my job, I am very confident in those whose 
job it is to make sure that there's a secure and safe Olympic 
Games in Athens--the International Olympic Committee, the 
United States Olympic Committee, and the organizers of the 
Olympic Games.
    Every time I do compete, it's stressful enough to be out 
there and think about who I'm going to be competing against, 
especially in my sport of Taekwondo, where in a split second, 
you know, you could get, you know, hit or hurt. But that's my 
concern. And I have confidence in those whose hands it is the 
responsibility to ensure safety.
    There have been some comments made, and statements made, 
that the answer to the security issues or concerns is by not 
attending the Athens Games at all. And that, to me, would be a 
detriment to our country. It would be--the Olympics is more 
than just the biggest competition in the world; it's the 
purest--I think, the purest--it brings the world together. It's 
pure, and the greatest sporting event of all mankind. And my 
greatest memory, and my greatest moment of my life, was to be 
on the first-place podium representing my country with a hand 
over my heart watching my flag being raised as thousands heard 
my national anthem being played. And there's nothing I want 
more in life to be able to go back in 2004 and listen to that 
anthem once again.
    And I just thank you for giving me the opportunity to speak 
on the security issues, on the perspective of an athlete, and I 
welcome any questions that you have for me, Mr. Chairman.
    [The prepared statement of Mr. Lopez follows:]

 Prepared Statement of Steven Lopez, U.S. Olympic Athlete in Taekwondo
    Good afternoon Mr. Chairman and Members of the Committee.

    My name is Steven Lopez and I am a 2000 Gold Medalist in Taekwondo 
and hope to replicate that accomplishment at the 2004 Olympic Games in 
Athens which will begin 100 days from tomorrow.
    Taekwondo is an ancient martial art sport, a variation of which 
dates back to 50 B.C. Over the centuries and millennia Taekwondo, which 
is similar to karate, has evolved into a modern day sport that blends 
athleticism with mental discipline. While fundamentally an athletic 
endeavor whose purpose is self-defense, its practice emphasizes the 
necessity of developing mental discipline and emotional equanimity, and 
a sense of responsibility for one self and for others. Further, at its 
foundation is a strict moral and ethical code that stresses loyalty to 
God, country and family, and respect for all mankind.
    I have been engaged in the sport since I was five years old. At the 
current age of 25 that is eighty percent of my life. Although my God, 
my family, my friends and my education have always taken precedence, 
dedication to the requirements and principles of Taekwondo have guided 
me for most of my life and have required that I learn to sharpen my 
focus to matters which I can control, and leave to others what I 
cannot.
    I was invited here apparently to discuss security concerns in 
Athens and measures to ensure athlete safety. Frankly, these are 
matters that fall into the category of those that are beyond my 
knowledge and control, and about which I lack the experience and 
competency to address authoritatively. I am not concerned about 
security. My focus is and will continue to be on preparation for my 
competition, and to representing my countrymen in a manner that will 
reflect favorably upon them. Security is the last thing that I am 
worrying about. Instead, I am trusting the United States Olympic 
Committee, the organizers of the Athens Games, and perhaps U.S. 
Government authorities to address these matters.
    I read a newspaper article last week where a former Olympian 
speculated that there is a high probability that the U.S. team, or 
perhaps some of its members, will eventually withdraw from the 2004 
Olympic Games out of concern for security. In all due respect, the high 
probability is that this individual doesn't know the athletes who will 
make up the 2004 Olympic Team and has forgotten what motivates them. I 
and my fellow athletes have prepared much too long to forfeit the honor 
of participating in the greatest athletic competition in the world. The 
Olympic Games are not merely an athletic competition, but rather, a 
unique lifetime experience that we are fortunate to have the 
opportunity to be invited to participate in. Please don't ask me 
whether I plan to go to Athens. Rather, ask me what can I do to bring 
honor and glory to the United States, and to my countrymen whose 
support and encouragement will enable me to represent them this Summer.
    Thank you for your time and for your attention.

    Senator Smith. Steven, thank you for your words, but more 
for your courage and incredible attitude. And I just want you 
to know that we, on this Committee and Congress, and I know on 
United States Olympic Committee, are anxious to do everything 
possible to make sure that your personal security is provided 
for so you can focus on your athletic success, because we want 
to see that, as well, and hear that national anthem, and see 
you on that top tier.
    Mr. Lopez. Thank you.
    Senator Smith. Thank you, and all the best to you.
    Mr. Lopez. Thank you.
    Senator Smith. Carl Lewis. Needs no introduction.

                   STATEMENT OF CARL LEWIS, 
            U.S. OLYMPIC ATHLETE IN TRACK AND FIELD

    Mr. Lewis. Well, first of all, thank you, Mr. Chairman, for 
giving me this opportunity to speak. And, in the words of Track 
and Field, I'm the anchor leg.
    [Laughter.]
    Mr. Lewis. This is a very, very important time; this is a 
very critical issue we're talking about. And I, myself, have 
had the privilege to--and the honor, actually--to represent my 
country to five Olympic teams, four Olympic Games, and--from 
Los Angeles all the way until Atlanta, in 1996. And through all 
of these Games, security was a very important part of it. But, 
unfortunately, now we live in a world where security is even 
more important.
    You know, as a former Olympic athlete, I am, by no means, 
an expert on security matters, and I'm not here to pull out a 
crystal ball and try to predict what will happen, or what can 
happen, in Athens. I'm simply here to encourage you to do the 
right thing, to support the most advanced, complete security 
possible that we can have.
    And, as a former athlete, I know how to prepare for 
competition. To be successful when the athlete trains, and to 
prepare for competition, he or she needs to focus entirely on 
his competition, and give his undivided attention to training 
and preparation for every single event, as we just heard. An 
athlete cannot be distracted by any factors or diversions. And 
my message and plea to all of you today is simple. As members 
of the U.S. Government, please do everything within your power 
to ensure the greatest level of security that's available to 
all of the Olympians in Athens. And if that means more 
resources, I hope they'll be provided. And if that means more 
briefings and international collaboration, I hope that'll take 
place.
    I also have a message to the athletes who are in the midst 
of their training for Athens. Stay completely focused on your 
training, and rest assured that you will be competing in an 
environment that has the highest level of security ever 
provided for any athletic competition.
    And to help raise comfort for all of these athletes, let's 
consider the following issues. Well over $1.2 billion will be 
spent on security in Athens, which is nearly four times the 
amount that was spent in Sydney just 4 years ago. And also, for 
the first time ever, the U.S. Government is able to provide 
athletes protection for the first time. And also, the U.S. 
Government has been in close contact and working with other 
countries and the Greek Government in a joint security program, 
and this program will be obviously a very, very international 
effort.
    In my experiences competing in four Olympic Games, I've 
always been impressed with the level of security provided for 
the athletes by the host nation. I never felt threatened or 
concerned with security, and that allowed me to focus on 
competition. And I'm both confident and hopeful that despite 
the new security concerns in Athens, that the extensive and 
well-coordinated security programs that will be in operation 
will provide all athletes a high level of confidence and will 
allow them to focus exclusively on what they came here to do--
compete on the fields of play, and connect with new friends 
from around the world.
    I know and I'm aware of all those who think that sending 
U.S. athletes to Athens is an unnecessary risk. Mr. Chairman 
and Members of the Committee that would be listening, as a 
member of the U.S. Olympic Team that will not be able to--that 
did not compete in the 1980 Moscow Olympic Games, I urge and 
ensure you that the absent will not stand a message that the--
I'm sorry--being a member of the 1980 Olympic Team, I urge and 
ensure that the absence of some clear, present danger will 
never change that course of action. And our athletes have been 
training so much of their lives for this very special moment, 
so let's not take it away from them. And I remember, also, in 
looking at so many athletes at the end of their careers, in 
1980, who had to understand that they would never have that 
chance again.
    The beauty of sports and, in fact, the very foundation of 
this Olympic movement is that sport transcends all borders and 
political strife. Regardless of the conflicts of the world and 
various difficult international relations, we have a powerful 
and beautiful common interest, the competition of sports. And 
it is my hope that this Olympics will be the best ever, and 
that, with your continued support, athletes from all over the 
world, whatever they do, will be at their best and compete 
without any distractions.
    Thank you, and I appreciate the opportunity to be here. And 
if you have any questions, I'd be happy to answer.
    [The prepared statement of Mr. Lewis follows:]

  Prepared Statement of Carl Lewis, U.S. Olympic Athlete in Track and 
                                 Field
    Thank you, Mr. Chairman and members of the Subcommittee for this 
opportunity to speak on the important matter of Olympic Security. The 
timing and the subject matter of this hearing are critical, and I 
applaud you for recognizing its importance.
    I have had the privilege and honor to represent my country on five 
U.S. Olympic teams and to compete in four summer Olympics: Los Angeles 
(1984), Seoul (1988), Barcelona (1992) and Atlanta (1996). In each of 
these games, security has been an important consideration and 
unfortunately, it is even more so now in the world we live in today.
    As an Olympic athlete, I am by no means an expert on security 
matters. What I am is an athlete who knows how to prepare for 
competition. To be successful, when an athlete trains and prepares for 
competition, he or she needs to focus his or her complete and undivided 
attention on training and preparing for competition. An athlete cannot 
be distracted by any other factors or diversions. My message and plea 
to you today is simple: as members of the U.S. Government please do 
everything within your power to ensure that the greatest level of 
security is available for the Olympics in Athens.
    I also have a message to the athletes who are in the midst of their 
training for Athens: stay completely focused on your training and rest 
assured that you will be competing in an environment that has the 
highest level of security ever provided to an athletic competition. To 
help raise your comfort level as athletes, consider the following:

  <bullet> Well over $1.2 billion dollars will be spent for security at 
        Athens--which is nearly four times what was spent protecting 
        the Sydney Games four years ago;

  <bullet> For the first time ever, the U.S. Government is able to 
        provide its own protection for U.S. athletes; and

  <bullet> The U.S. Government has been in close contact and working 
        collaboratively for years with the Greek and other governments 
        on a joint security program--this will be an international 
        effort.

    In my experience of competing in four Summer Olympic Games, I have 
always been impressed with the level of security provided athletes by 
the host nation. I have never felt threatened or concerned with 
security, and that has allowed me to focus on competition. I am 
confident that despite the new security concerns about Athens, the 
extensive and well-coordinated security programs that will be in 
operation will provide all athletes a high level of confidence and will 
allow them to focus exclusively on what they came to do--compete on the 
fields of play and connect with new friends from around the world.
    I am aware of those who think that sending U.S. athletes to Athens 
is an unnecessary risk. Mr. Chairman and members of the Committee, as a 
member of the U.S. Olympic Team that was not able to compete in the 
1980 Summer Olympic Games in Moscow, I urge you to ensure, that absent 
some clear and present risk, we never take that course of action again. 
Our athletes have been training for much of their lives for this very 
special moment. Let's not take that away from them.
    The beauty of sports, and in fact, the very foundation of the 
Olympic movement is that sport transcends all borders and political 
strife. Regardless of the conflicts of the world and the various 
difficulties in international relations, we have a powerful and 
beautiful common interest: the competition of sports. It is my hope 
that this Olympics will be the best ever and that with your continued 
support, athletes are able to do what they do best--compete, without 
any distractions.
    I appreciate the opportunity to be able to present my views and 
speak on this important matter.

    Senator Smith. Thank you, Carl.
    I think as I sum up your testimony and restate it, you're 
saying, to the athletes of our current team, go to Athens.
    Mr. Lewis. Oh, one hundred percent.
    Senator Smith. Would you also share with them anything that 
you did, Carl--or you, Steven, did in Sydney--about your 
personal security? I mean, were there moments where you would 
say, ``Hey, don't do this, don't go there,'' or, ``Just focus 
on your sport, and that'll keep you where you ought to be and 
away from where you ought not to be''?
    Mr. Lewis. Well, I'll take that first. The first thing that 
I did was, I communicated with the Olympic Committee. If we had 
to leave the village or go to a different venue, they 
understood where I was going, they knew what I was doing, so 
that there was a communication. But most of the time, I did 
utilize the facilities. I stayed within the village confines, 
which I think is very important, and enabled them to protect 
me. Because if you don't communicate, then they're unable to do 
that with you.
    Mr. Lopez. Much of the same as Carl said, in Sydney, just 4 
years ago, I felt--I mean, the security was almost overwhelming 
in--I mean, just all the security they had to go through to 
even enter the Olympic Village. Anytime you wanted a family 
member, you had to give them a passport, and, 3 days before, 
you had to do all these things. But when you're an athlete, 
you're not really concerned about seeing monuments or buildings 
or much of the city. What you're concerned about is doing your 
job, which is competing. And you have everything--the Olympic 
Village is a city in itself, and--but if you do go outside of 
the village, we did have security with us. We did communicate 
to our head-of-team, or whoever was in charge of us, that we 
were going to be going to that location.
    And heading to 2004, I feel even more confident, just 
because there's going to be three times as much security. I 
think, in Sydney, there was around 15,000 security personnel, 
and there's going to be around 45,000 personnel this time. And, 
as an athlete, I feel very secure. I feel very confident that 
the International Olympic Committee, the United States Olympic 
Committee, and all the organizers will do everything possible 
to ensure a safe Olympic Games. And my main goal, my only 
priority, is to bring home another gold medal for the United 
States.
    Senator Smith. And we want that very much for you.
    And, Carl, I was very intrigued by your reference to the 
1980 Olympics. And as someone who's very much involved in 
politics, along with my colleagues on the Hill, you know, that 
was a troubled time, in the cold war, in which politics got in 
the way of sport. And it does seem to me that the world was the 
poorer for the way that all played out, and not just in 
Afghanistan, with Russia, but because we didn't go, and we 
didn't come together as a world community to maybe put aside 
politics for a while and do a lot of healing that often can 
happen at Olympics.
    And I think my only closing comments are that it's 
important that we go--do all we can to be safe, but important 
that we go, now more than ever, so that the politics of those 
who would visit us with terror don't win. We have heard that 
many times, in many other circumstances, ``Go about your life 
as you would, or those who would threaten us win by our change 
in course.''
    So each of you who have contributed to this hearing today, 
we thank you. And the politics of this place are to go, and 
let's do all we can to secure Athens, and do our part to help 
the Greek community, and let's take a lot of gold medals. But 
let's do a lot of healing in the world through the Olympic 
Games, where we can see the humanity of every person there, and 
not have, at the forefront, our political differences, but our 
common humanity, through sport.
    Thank you, gentlemen, for being here. And, with that, this 
hearing is adjourned.
    [Whereupon, at 3:31 p.m., the hearing was adjourned.]

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
